No. 19-46

 

IN THE

Supreme Court of the United States

UNITED STATES PATENT AND TRADEMARK OFFICE, et al.,

Petitioners,
Vv.

BOOKING.COM B.V.,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF OF TRADEMARK AND INTERNET
LAW PROFESSORS AS AMICI CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,914 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2020.

 

Colin Casey Hoga:
Wilson-Epes Prinfing Co., Inc.
